Case: 21-1171

Document: 6-1

Filed: 04/16/2021

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

PLRA C.R. 3(b) FINAL ORDER
April 16, 2021
BRALEN LAMAR JORDAN,
Plaintiff - Appellant
No. 21-1171

v.

UNITED STATES OF AMERICA, et al„
Defendants - Appellees
Originating Case Information:
District Court No: 3:20-cv-50514
Northern District of Illinois, Western Division
District Judge Iain D. Johnston
The pro se appellant was DENIED leave to proceed on appeal in forma pauperis by the
district court on February 11, 2021. The pro se appellant has neither paid the $505.00
appellate fees nor filed a motion for leave to proceed on appeal in forma pauperis in the
Appellate Court, as prescribed in Fed. R. App. P. 24(a). Accordingly,
IT IS ORDERED that this appeal is DISMISSED for failure to pay the required docketing
fee pursuant to Circuit Rule 3(b).
IT IS FURTHER ORDERED that the appellant pay the appellate fee of $505.00 to the clerk
of the district court. The clerk of the district court shall collect the appellate fees from the
prisoner's trust fund account using the mechanism of Section 1915(b). Newlin v. Helman,
123 F.3d 429, 433 (7th Cir. 1997).

form name: c7_PLRA_3bFinalOrder(form ID: 142)

Case: 3:20-cv-50514 Document#: 6 Filed: 01/12/21 Page 1 of 2 PagelD#:33

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
WESTERN DIVISION
Bralen Lamar Jordan (22702-009),
Plaintiff,
v.
United States of America, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Case No. 20 C 50514
Hon. Iain D. Johnston

ORDER
This case is administratively closed as duplicative of Jordan v. Federal Bureau ofPrisons,
No. 3:20-cv-50456 (N.D. Ill.) (Johnston, J.). Because the Court is administratively closing this
case, a filing fee will not be assessed under 28 U.S.C. § 1915(b) nor will a “strike” be assessed
under 28 U.S.C. § 1915(g). Now that Plaintiff has been warned that duplicative lawsuits are
impermissible, however, he will be required to pay the filing fee for future duplicative lawsuits
and those suits may be dismissed as frivolous or malicious under 28 U.S.C. § 1915(g). See Smith
v. Gleason, No. 12-cv-633-WMC, 2013 WL 6238488, at *7 (W.D. Wis. Nov. 27, 2013)
. (“Repetitive allegations are considered malicious and are grounds for dismissal under the PLRA.”)
(citing Lindell v. McCallum, 352 F.3d 1107, 1109-10 (7th Cir. 2003)). All pending motions are
denied as moot.
STATEMENT
Plaintiff Bralen Jordan, a federal prisoner, initiated this lawsuit pursuant to Bivens v. Six
Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S. 388 (1971) and the Federal
Tort Claims Act, 28 USC §§ 1346, 2671-2680. Plaintiff appears to be claiming that prison officials
at his current facility, USP Thomson, have failed to treat his chronic medical conditions, eye
problems, and torn muscle; used excessive force against him; and improperly held him in
Thomson’s Special Management Unit. {See Dkt. 1.) Plaintiffs complaint is far from a model of
clarity. Nonetheless, it is apparent the claims Plaintiff asserts here are also the subject of Jordan
v. Federal Bureau ofPrisons, No. 3:20-cv-50456 (N.D. Ill.) (Johnston, J.), which remains pending.
Because this case duplicates Plaintiffs earlier filed case, the Court administratively closes this
case without assessing a filing fee at this time. Plaintiff is warned that he may not continue to
pursue the duplicative claims in this lawsuit. If Plaintiff makes future filings in this case (no. 3:20cv-50514) the Court may assess the filing fee or consider other sanctions.
Plaintiff is further warned that “[Repetitive allegations are considered malicious and are
grounds for dismissal under the PLRA.” Smith v. Gleason, No. 12-cv-633-WMC, 2013 WL
6238488, at *7 (W.D. Wis. Nov. 27, 2013) (citing Lindell v. McCallum, 352 F.3d 1107, 1109-10
(7th Cir. 2003)). Such actions may result in a “strike” under 28 U.S.C. § 1915(g). If Plaintiff files

Case: 3:20-cv-50514 Document#: 6 Filed: 01/12/21 Page 2 of 2 PagelD #:34

any future duplicative lawsuits, he will be assessed a filing fee and the suit may be dismissed as
frivolous or malicious pursuant to 28 U.S.C. § 1915(g). Moreover, although the conclusory nature
of Plaintiff s allegations makes it difficult to determine the precise boundaries of his claims, it is
likely most of the claims asserted here would be barred by the doctrine of res judicata. See Allen
v. McCurry, 449 U.S. 90, 94 (1980) (explaining that the doctrine of res judicata (or claim
preclusion) bars a plaintiff from re-litigating claims he previously brought or claims he could have
brought in a prior action). Many of the issues Plaintiff identifies in the complaint were resolved on
the merits in his prior lawsuits, Jordan v. Samuels, No. 3:20-cv-50211 (N.D. Ill.) (Johnston, J.),
and Jordan v. Rivers, No. 3:20-cv-50297 (N.D. Ill.) (Johnston, J.) Plaintiff should be aware that if
he continues pursuing claims that were dismissed in previous lawsuits, he may incur another strike.
Walker v. Page, 59 F. App’x 896, 900 (7th Cir. 2003) (“Because Walker’s case is squarely barred
by res judicata, under the PLRA he earns a ‘strike’ for bringing the action.”)
This case is closed, and all motions are denied as moot.

Date: January 12, 2021

By:

^5

Iain D. Johnston
United States District Judge

Additional material
from this filing is
available in the
Clerk's Office.

